f

ro^z "f\
05 \)

f'uU& of
, <0O" (£>9-9-2

i

DgV/e-g

lb__ DpPLfil
i>sF

FILED: June 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6222
(2:15-cr-00007-JAG-DEM-4)
(2:16-cv-00637-JAG)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DWAYNE BANKS
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
Is/ PATRICIA S. CONNOR, CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6222
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DWAYNE BANKS,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Norfolk. John A. Gibney, Jr., District Judge. (2:15-cr-00007-JAG-DEM-4; 2:16-cv00637-JAG)
Submitted: June 16, 2020

Decided: June 19, 2020

Before MOTZ and KING, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Dwayne Banks, Appellant Pro Se. Andrew Curtis Bosse, Assistant United States Attorney,
OFFICE OF THE UNITED STATES ATTORNEY, Norfolk, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Dwayne Banks seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2255 (2018) motion. The order is not appealable unless a circuit justice or
judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(B) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buckv. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the motion states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Banks has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
INFORMAL BRIEF FOR HABEAS AND SECTION 2255 CASES
US v. Dwavne Banks
No. 20-6222,
2:15-cr-00007-JAG-DEM-4, 2:16-cv-00637-JAG
1. Declaration of Inmate Filing
An inmate's notice of appeal is timely if it was deposited in the institution s internal
mail system, with postage prepaid, on or before the last day for filing. Timely filing
may be shown by:
. ■ a postmark or date stamp showing that the notice of appeal was timely
deposited in the institution's internal mail system, with postage prepaid, or
. a declaration of the inmate, under penalty of perjury, of the date on which the
notice of appeal was deposited in the institution's internal mail system with
postage prepaid. To include a declaration of inmate filing as part of your
informal brief, complete and sign the declaration below:
Declaration of Inmate Filing
Date NOTICE OF APPEAL deposited in institution's mail system:

2/6/20

I am an inmate confined in an institution and deposited my notice of appeal in the
institution's internal mail system. First-class postage was prepaid either by me or by the
institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct (see 28 U.S.C. §
1746; 18 U.SC.§ 1621).
Date: 3/<J /20 20
Signature: PwsynG Ba.nk.Sy 854-70 083
[Note to inmate filers: If your institution has a system designed for legal mail, you must
use that system in order to receive the timing benefit of Fed. R. App. P. 4(c)(1) or Fed. R.
App. P. 25(a)(2)(A)(iii).)___________________
--

2. Jurisdiction
Name of court from which you are appealing:
District Court in Norfolk, VA

Date(s) of order or orders you are appealing:
3. Certificate of Appealability
Did the district court grant a certificate of appealability? Yes [ ]Nop]
If Yes, do you want the Court of Appeals to review additional issues that were not
Yes [x]No[ ]
certified for review by the district court?
If Yes, you must list below the issues you wish to add to the certificate of
appealability issued by the district court. If you do not list additional issues, the
Court will limit its review to those issues on which the district court granted the
certificate.

4. Issues on Appeal
Use the following spaces to set forth the facts and argument in support of the issues
you wish the Court of Appeals to consider on appeal. You must include any issue
you wish the Court to consider, regardless of whether the district court granted a
certificate of appealability as to that issue. You may cite case law, but citations are
not required.
Issue 1.
Supporting Facts and Argument.

'

Whether the District Court abused its Discretion by
allowing the Gov 2yrs later to file a Response to his 2255,
when "the Gov conceded it "forgot'for 2yrs"? (See Gov Resp.
Doc's p.240 & 240-1 & Brief Attached p. 2-4)

Issue 2.
Supporting Facts and Argument.
Whether the District Court violated US v Mohamdi,
17-7395 (4th Cir 2018) by Failing to Address all grounds
prior to Issuing the Denial of his 2255, thus rendering
this Court without Jurisdiction to Entertain these Issues
(See Brief Attached p. 4-6)

Issue 3.
Supporting Facts and Argument.
Whether Former Counsel (T. Kelleten) was Ineffective
in Light of US v Carthorne, US v Winbush, US v Allmindger,
Glover v US & Strickland v Washington.
(See Brief Attached p. 4-6)

Issue 4.
Supporting Facts and Argument
N/A

5. Relief Requested
Identify the precise action you want the Court of Appeals to take:
N/A

6. Prior appeals (for appellants/petitioners only)
A. Have you filed other cases in this Court? Yes [ ] No [x]
B. If you checked YES, what are the case names and docket numbers for those
appeals and what was the ultimate disposition of each?
N/A

Dwayne Banks

Signature
[Notarization Not Required]
Dwayne Banks

[Please Print Your Name Here]
CERTIFICATE OF SERVICE
**********************

I certify that on 3/
/20^° I served a copy of this Informal Brief on all parties,
addressed as shown below: AUSA.Andrew C. Bosse
101 West Main St.
Suite 8000
Norfolk, VA 23510
Dwayne Banks, 85470-083

Signature
I NO STAPLES, TAPE OR BINDING PLEASE |

IN THE FOURTH CIRCUIT
COURT OF APPEALS

Dwayne Banks
Appellant

)
)
)

) Appeal Case No:
)

vs
United States of America

(y ^ P <P

‘

) Previous Case No: 2:15CR07
2:16CV637
)
),

3
)

Petitioner's Request for A Certificate of Appealability
& Request To Continue with Appeal Based Upon
The [First Impression] Issues Herein

Comes now the Appellant, Mr. Dwayne Banks > hereby pro se
humbly before the Court to Timely:File his [First Impression]
Issues & Request to proceed on Appeal, so that the 4th Circuit
Panel may "provide guidance" to the lower Courts on how to deal
with the Herein Issues, which are unique in nature:
1)

Whether the District Court should have "struck the Gov's
2 yr delayed 2255 response", when the Gov failed to
request any extensions that would have provided
"reasoning" for each extension. In this case, the
Government did not request any extension but "conceded
that they had forgotten". (See Gov Resp. 240 & 240-1.
Bpth filed on 3/22/19 & (Doc 241). The Gov failed to
file a timely response.)

2)

The Petitioner filed "A Motion to Reduce Sentence
Pursuant to Amendments 790, 794 & 811, which was latei

1'

j

converted as a Supplement of the "Still Open 2255 • But
the District Court !’Never Resolved" the merits of
Amendments 790 & 811, but instead focused & ruled "Only" :
on Amendment 794. Therefore, did the Court violate this
Courts US v Mohamdi 17-7395 (4th Cr 2018) Ruling thus
requiring the vacating of the 2255 Denial order so the
Court may properly resolve the Additional Merits, (See
Doc 243) & Doc 244

4

4

. Banks "claim" ... is dismissed

(not claims)
3)

Whether the Sentencing Counsel (Trey R. Kelleter, ESQ)
was Ineffective within the purview of US v Carthorne,
US v Allmindger, US v Winbush & Glover v US. As well as

i

Strickland v Washington, when the Counsel Failed to
"Recognize the Legal Landscape Changes that [were passed
prior to sentencing] in 2015 & took effect on Nov 1,2015"
that would have reduced the 1) Drug Weight, 2) Provided
a minor/mitigating role reduction and clearly reduced
the Petitioner’s Guideline Exposure" if they were raised
by the Counsel

(See Doc 240-2) & would have granted the

additional Full 3 Level Reduction for the timely
Acceptance. (See Doc 242 p.2 of Petitioner's response.)

I. Applicable Facts & Issues
The Petitioner was indicted in the E.D. of Virginia, Norfolk^
Division for various drug crimes stemming from a conspiracy. The
Government, PSR & Counsel were all aware & conceded that the
Petitioner "was unaware" of the various actions of others,
2

including his Brother's operation" & also that the Petitioner did
not play a significant role (see PSR 9, 11, 13, as well as Gov's
Sentencing Filing Doc 173 p.9 « • • Banks Conduct within the
Conspiracy was relatively less egerious than others & the Gov
has no evidence that the Defendant possessed a dangerous weapon
during the course & Doc 172).
The Court imposed 135 mths for the Petitioner on 10/30/15.
(Doc 192).The Petitioner filed a 2255 & the Gov was suppossed to
respond

within 40 days, but instead filed 2 yrs later. (Doc 240,

the Government.filed a timely response to Smith's 2255 Motion but
failed to file any response to the Petitioner's (Banks) 2255
Motion (see Doc 240 p.2 Sec 6-7... it was brought to the
attention on 3/7/19 by a Norfolk District Court Case M.G.R.
sec 8 p.2 of Doc 240) Compared to Petitioner's resp Doc 242,
(Dated 4/2/19)... requesting the Court to Strike the Gov's
response.)

-

Instead of Striking the Governments 2 yr delayed response
& Granting the Petitioner's 2255 Relief & Evidentiary Hearing
the Court instead ruled on the Amendment 794 & failed to address
Amendments 790 & 811. The Court also ruled on the Ineffective
Assistance Claim but failed to Grant the Evidentiary Hearing &
failed to qpply Glover v US Sentencing Ineffectiveness Standards.
Therefore, the Petitioner brings these "Unique & 1st
Impression Issues to this Court" & ask the Court to provide
Guidance to the Defendant's & Courts alike of how to resolve
these type of Issues & to Clarify which governs,GloveriStandards

3

or Strickland? As well as Determine the merits of the Amendment
790, 794 & 811 Applicability for those who were not yet sentenced
when these Amendments were passed & how to properly apply these
reductions.

II.
For years experts have blamed Stickland v Washington s
"lax" Standard for assessing Trial Attorney effectiveness for
many of the Criminal Justice System's problems. But the
Conventional understanding of Stickland as a problem for
ineffectiveness Claims gives Stickland "Too much prominence"
because it ''’Treats Strickland as the "Test for all such claims,"
But that is the mistake, because when properly understood, the
Sp.Ct. has recognized 4 different Constitutional forms of
Ineffectiveness & Strickland's 2 prong test applies to only 1 of
the 4 & not all 4. (David C. Bazelon, the Defective Assistance of
Counsel, 42 0. Cin L,. Rev 1,2 (1973)... what I have seen in my 23
yrs on the Bench leads me to believe that a great many, indigent
Defendants do not receive the Effective Assistance of Counsel
guaranteed to them by the 6th.Amendment.)

In this case , it is undisputed that "prior to sentencing ,
the U.S. Sentencing Commission had passed the Amendments 790,
794 & 811. It is also undisputed that the Provisions took effect
on Nov 1, which was 2 days after the Petitioner's Oct 30th
sentencing. But it is also undisputed that the "Counsel Failed to
request the Application of any of these Amendments to be applied
4

!

or even considered because he was not even aware of the changes
in the Law that would have benefited his Client." While the
Stickland’s "cause & prejudice" prongs are met then it forces
the Glover v US to be invoked due to the Counsel's
ineffectiveness^during the Sentencing phase.

The Petitioner (Banks) did raise each of the issues & the
Gov did not respond for

2 yrs

after the issues. The Court

allowed the Government to respond when even the Government
conceded "It had forgotten". But for 2 yrs, that is extraordinary
& very unprofessional, In this case, which is rather simple
but complex the only issues are "what to do about such actions":
1) When the Gov’s delayed filing of 2 yrs is used to lead to
a denial?
2) When the Counsel failed to "know the Law changes" or
failed to mention them?
3) When the Court failed to address all the Claims in the
2255 prior to denial.
'

4) How should the Court craft a ruling that will Direct
the Lower Court as well as provide further benefits
to all District Courts on how to deal with such legal
debacles?

5

I

III. Conclusion
Therefore, the COA must be granted in light of Buck v Davis
137 S.Ct 759

(Sp.Ct. 2017 )

the Appeal panel can "craft

a 1st Impression Ruling" & vacate the District Courts Ruling with
instructions of how to proceed under such circumstances as well
as hold an Evidentiary Hearing.

day on Feb, 2020 by,

Respectfully submitted on this

S/
Hr.Dwayne Banks
Fed No. 85470-083
FCI Butner II
P.0. Box 1500
Butner, NC 27509

V

IV. Certificate of Service, 28 USC 1746
I,

Dwayne Banks

, do hereby swear under the penalty

of perjury that a copy of the Appellant's Request for Certificate
of Appealability has been sent via US Postal Mail to the 4th
Circuit Court of Appeal and the AUSA of Record below:

AUSA, Andrew Bosse
101 West Main St.
Suite 8000
Norfolk, VA 23510

S/

Submitted: 2/___ /2020

Mr. Dwayne Banks

6

I

J

22X3.
i)5 DJST. Poo£7 of
9-&5S Qpr^tf\( oweZ In
Os J PaAs , 3:i5f’2.o~l
DfC

IZ, 2.oiCf

Case 2:15-cr-00007-JAG-DEM Document 244 Filed 12/12/19

Page 1 of 1 PaaelD# 1594

Li E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division

DEC I 2 2019
CLERK, U.S. DISTRICT COURT
______ RICHMOND. VA

UNITED STATES OF AMERICA
Criminal No. 2:15CR07

v.

DWAYNE BANKS,
Petitioner.
ORDER
In accordance with the accompanying Memorandum Opinion, it is hereby ORDERED that:
1.
2.
3.

The § 2255 Motion (ECF No. 224) is DENIED;
Banks’s claim and the action are DISMISSED; and,
A certificate of appealability is DENIED.

Banks is advised that she may appeal the decision of this Court. Should she wish to do so,
a written notice of appeal must be filed with the Clerk of the Court within sixty (60) days of the
date of entry hereof. Failure to file a timely notice of appeal may result in the loss of the ability to
appeal.
The Clerk of the Court is directed to send a copy of the Memorandum Opinion and this
Order to Banks and counsel for the Government.
It is so ORDERED.

] 2,

Date:
Richmond, Virginia

2

/S/

John A. Gibney, Jr. J n
United States District Juqge

Case 2:15-cr-00007-JAG-DEM Document 243 Filed 12/12/19

Page 1 of 3 PagelD# 1591

Li IR\
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division

DEC I 1 2019

CLERK, U.S. DISTRICT COURT .
RICHMOND. VA

UNITED STATES OF AMERICA
Criminal No. 2:15CR07

v.

|J

DWAYNE BANKS,
Petitioner.
MEMORANDUM OPINION
Dwayne Banks, a federal inmate proceeding pro se, brings this motion pursuant to
28 U.S.C. § 2255 (“§ 2255 Motion,” ECF No. 224). In his § 2255 Motion, Banks contends that
he failed to receive the effective assistance of counsel because his counsel should have moved to
continue Banks’s sentencing so that Banks could receive the benefit of Amendment 794 to
Sentencing Guidelines.1 As the Court previously explained to Banks, Amendment 794 would not
have altered the sentence the Court imposed on Banks. Accordingly, for the reasons stated more
fully below, the § 2255 Motion will be DENIED.
I. Procedural History
Banks pled guilty to conspiracy to manufacture, distribute, and possess with intent to
distribute one kilogram or more of heroin. (ECF No. 69, at 1-2; ECF No. 151, at 1.) The matter
was set for sentencing on October 30, 2015. (ECF No. 154, at 1.) Banks’s Base Offense Level
was 30. (ECF No. 240-2, at 17.) Banks received a 2-level enhancement for obstruction of justice
and 2—level reduction for acceptance of responsibility. (Id.) Banks’s Criminal History Category
1 Amendment 794, which became effective on November 1, 2015, “amended the Commentary to
the Sentencing Guidelines at § 3B1.2, which addresses a defendant’s mitigating role in the offense.
Amendment 794 introduced a list of non-exhaustive factors that a sentencing court should consider
when determining whether to apply a mitigating role adjustment.” Orji v. United States, Nos 1:13—
CR-79,1-.16-CV-134, 2017 WL 1091784, at *1 (E.D. Va. Mar. 22, 2017).

Case 2:15-cr-00007-JAG-DEM Document 243 Filed 12/12/19 Page 2 of 3 PagelD# 1592

was TV, resulting in an advisory Sentencing Guideline range of 135 to 168 months. (Id.) The
Court sentenced Banks to 135 months of imprisonment. (ECF No. 192, at 2.)
On August 4,2016, Banks filed a letter asserting that he was entitled to a 2-level reduction
to his Offense Level pursuant to Amendment 794, which clarifies the minor role reduction
available in § 3B 1.2 of the Sentencing Guidelines. (ECF No. 216.) The Court appointed counsel
to file a supplemental brief on Banks’s behalf with respect to his request for relief pursuant to
Amendment 794. (ECF No. 217.) By Order entered on November 4, 2016, the Court denied
Banks’s request for relief. (ECF No. 223.) The Court concluded that Banks was not entitled to
relief pursuant to Amendment 794 because: (1) the Sentencing Commission did not make
Amendment 794 retroactive; and (2) “even if the Court did consider the amended §3B1.2, the
defendant did not play a ‘minimal’ or ‘minor’ role in the offense.” (Id. at 1.)
To demonstrate ineffective assistance of counsel, a convicted defendant must show first,
that counsel’s representation was deficient and second, that the deficient performance prejudiced
the defense. Strickland v. Washington, 466 U.S. 668, 687 (1984). To satisfy the deficient
performance prong of Strickland, the convicted defendant must overcome the

strong

presumption’ that counsel’s strategy and tactics fall ‘within the wide range of reasonable
professional assistance.’” Burch v. Corcoran, 273 F.3d 577, 588 (4th Cir. 2001) (quoting
Strickland, 466 U.S. at 689). The prejudice component requires a convicted defendant to “show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Strickland, 466 U.S. at 694. In analyzing ineffective
assistance of counsel claims, it is not necessary to determine whether counsel performed
deficiently if the claim is readily dismissed for lack of prejudice. Id. at 697. That is the case here,

2

,

Case 2:15-cr-00007-JAG-DEM Document 243 Filed 12/12/19 Page 3 of 3 PagelD# 1593

because Banks was not prejudiced by any failure of counsel to delay the sentencing proceedings
so that Banks could take advantage of Amendment 794. Although Banks was not a leader or
organizer in the conspiracy, he was not a minimal or minor participant. Among other things, Banks
transported large amounts of high purity heroin from New York to Hampton Roads and then
distributed a cut and expanded version of the heroin on streets of Hampton Roads. Additionally,
Banks was involved in staking out the associates of a rival gang. Accordingly, Banks’s claim will
be DISMISSED.2 The § 2255 Motion (ECF No. 224) will be DENIED. The action will be
DISMISSED. A certificate of appealability will be DENIED.
An appropriate Order will accompany this Memorandum Opinion.

Is!

Date:
Richmond, Virginia

Vs'

John A. Gibney, Jr. ( J /
United States District Judge

2 On April 4,2019, Banks filed a response wherein he contends that he is entitled to relief
only
under Amendment 794, but also under Amendments pertaining to “acceptance of
not
responsibility” and “strict liability drug quantity reduction.” (ECF No. 242, at 2 (capitalization
■ corrected).) Banks fails to explain, and the Court fails to discern, the substance of his claim, much
less why he is entitled to relief. The record does not suggest that Banks was entitled to a third
point for timely acceptance of responsibility under § 3E1.1 (b) of the Sentencing Guidelines. Banks
pled guilty only days before the commencement of his scheduled jury trial, July 28, 2015. (ECF
Nos. 133,150.)
3

.

tefp?* DiS/ZiC f vF Ol£t,u?A Ort?ic4
jr /W-f 6UPt2M-U>^euj S
d'?(LAtA()J*j T^r 2- cjtO Dfifty to
Doc Mo
3MI

j2t}^ tJ^L'

Case 2:15-cr-30007-JAG-DEM Document 241 Filed 03/28/19 Page 1 of 1 PagelD# 1585

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
UNITED STATES OF AMERICA
Criminal No. 2:15CR07

v.
DWAYNE BANKS,
Petitioner.

MEMORANDUM ORDER
(Granting Motion to File Out of Time)
The Court directed the Government to respond to Petitioner’s 28 U.S.C. § 2255 Motion.
The Government failed to file a timely respons e and now moves for an extension of time. The
Motion of Government (ECF No. 240) is GRANTED and the Government’s Response (ECF Nos.
240-1,240-2) is DEEMED TIMELY FILED.
The Clerk of the Court is DIRECTED to send a copy of this Memorandum Order to
.. ^

Petitioner and all counsel of record.
\

It is so ORDERED.

/s/
Date: MarchZlf, 2019
Richmond. Virginia

4

Roderick C. Young
United States Magistrate Judge

/

Case 2:15-cr-00007-JAG-DEM Document 240 Filed 03/22/19 Page 1 of 5 PagelD# 1522

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
DWAYNE BANKS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Criminal No. 2:15cr7
Civil No. 2:16cv637

MOTION OF THF, TTNTTED STATES FOR LEAVE TO FILE LATE RESPONSE TO
PETITIONER’S MOTION TO VACATE. SET ASIDE. OR CORRECT SENTENCE
The United States of America, by and through its attorneys, G. Zachary Terwilliger,
United States Attorney for the Eastern District of Virginia, and Andrew Bosse, Assistant United
States Attorney, respectfully moves this Court to enter an order granting leave to file an out-oftime response to Petitioner Dwayne Banks’s motion pursuant to Title 28, United State; Code,
Section 2255, to vacate, set aside, or correct his sentence. In support hereof, the government
states as follows:
1.

Petitioner pleaded guilty on July 30, 2015, to a heroin distribution conspiracy

pursuant to 21 U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(A). ECF Nos. 150-154. On October 30,
2015, the Hon. John A. Gibney, Jr., sentenced him to a term of 135 months’ imprisonment. ECF
No. 192.
2.

Petitioner, who waived his right to appeal his conviction or sentence in the plea

agreement he signed with the government, filed a motion on March 4, 2016, asking the Court to
appoint counsel and to reduce his sentence. ECF Nos. 211-212. The Court denied his motion
the same day. ECF No. 212. On August 4, 2016, Petitioner wrote to the Court to ask for a

\
/

Case 2:15-cr-00007-JAG-DEM Document 240 Filed 03/22/19 Page 2 of 5 PagelD# 1523

reduction in his sentence based on the 2015 amendment to the “minor role reduction” sentencing
guideline, which took effect shortly after his sentencing, asking that his letter be treated as a „
,§2255 application. ECF No. 216. The Court appointed the Federal Public Defender to represent
Petitioner and file a supplemental brief regarding his eligibility for relief. ECF No. 217. The
Federal Public Defender filed a brief on October 4, 2016. ECF No. 222.
3.

On October 11, 2016, Judge Gibney denied Petitioner’s motion, stating that

Petitioner would not have been eligible for a minimal or minor role reduction before or after the
2015 amendments. ECF No. 223.
4.

On October 31, 2016, Petitioner filed another petition, again styled as a § 2255

motion. ECF No. 224. In this filing, he argued that his counsel at sentencing was ineffective for
not asking the Court to continue the sentencing until after the minor role reduction amendment
went into effect.
5.

On August 9, 2017, this Court ordered the government to respond to the § 2255

motion within sixty days. ECF No. 232. The same day, the Court ordered the government to
respond to the § 2255 motion filed by Petitioner’s co-defendant and half-brother, Christopher
Smith. See ECF Nos. 230-231, 233.
6.

The government filed a timely response to the Smith § 2255 motion, see ECF

No. 235,^but erroneously failed to file anv response to Petitioner’s § 2255 motion.

The

government’s failure to file a response was unintentional; the attorneys assigned to the case, who
did receive the Notice of Electronic Filing, calendared only the order to respond to Smith’s
§ 2255 motion.
7.

The government’s oversight was brought to the attention of the undersigned on

March 7, 2019, by a Norfolk district court case manager.

2

Case 2:15-cr-00007-JAG-DEM Document 240 Filed 03/22/19 Page 3 of 5 PagelD# 1524

8.

The undersigned contacted defense counsel on March 8, 2019, and then ordered

the transcript from Petitioner’s sentencing. The government has now prepared a “complete, fully
briefed response” to Petitioner’s motion, as this Court’s order instructed. ECF No. 232.
9.

The trial court is given discretion in deciding whether to grant or deny untimely

motions. See, e.g., United States v. Johnson, 953 F.2d 110, 116 (4th Cir. 1991). Likewise, the
trial court also has discretion to consider late-filed response and reply briefs. See, e.g., DeBlasio
v.

Johnson, 128 F. Supp. 2d 315, 320 n.2 (E.D. Va. 2000); Bank of Am. Inv. Services, Inc. v.

Byrd, 2009 WL 10184606, at *1 n.2 (E.D. Va. June 15, 2009).
10.

The government submits that granting this motion and accepting its late-filed

brief, which outlines the somewhat complicated procedural history of the post-conviction
litigation in this case and cites caselaw discussing the issue raised by the § 2255 motion, will aid
the Court in deciding the pending motion. Because Petitioner raised the same issue in a recentlyfiled “coram nobis” petition, ECF No. 238, the government’s response brief will also aid the
Court in deciding that most recent petition.
11.

The government’s proposed response brief, along with the transcript from

Petitioner’s sentencing hearing, is attached to this Motion for Leave to File. Should the Court
grant this motion, the government will file the response brief through CM/ECF and serve a copy
of the brief on Petitioner by mail.
For the foregoing reasons, the government respectfully asks the Court to accept its latefiled response brief.

3

Case 2:15-cr-00007-JAG-DEM Document 240 Filed 03/22/19 Page 4 of 5 PagelD# 1525

Respectfully submitted,
G. ZACHARY TERWILLIGER
UNITED STATES ATTORNEY
By:

/s/

Andrew Bosse
Assistant United States Attorney
United States Attorney’s Office
101 West Main Street, Suite 8000
Norfolk, VA 23510
Phone: 757-441-6331
Fax: 757-441-6689
Email: andrew.bosse@usdoj.gov

4

Case 2:15-cr-00007-JAG-DEM Document 240 Filed 03/22/19 Page 5 of 5 PagelD# 1526

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 22nd day of March, 2019, I electronically filed the
foregoing with the Clerk of Court using the CM/ECF system, and mailed a true and correct copy
of the foregoing to the following non-filing user:
Dwayne Banks
Inmate Register No. 85470-083
FCI Butner Medium II
Federal Correctional Institution
P.O. Box 1500
Butner, NC 27509
/s/
Andrew Bosse
Assistant United States Attorney
United States Attorney’s Office
101 West Main Street, Suite 8000
Norfolk, VA 23510
Phone: 757-441-6331
Fax: 757-441-6689
Email: andrew.bosse@usdoj.gov

5

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 1 of 19 PagelD# 1527

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
DWAYNE BANKS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Criminal No. 2:15cr7
Civil No. 2:16cv637

RESPONSE OF THE UNITED STATES TO PETITIONER’S
MOTION TO VACATE. SET ASIDE. OR CORRECT SENTENCE
The United States of America, by and through its attorneys, G. Zachary Terwilliger,
United States Attorney for the Eastern District of Virginia, and Andrew Bosse, Assistant United
States Attorney, hereby responds to Petitioner Dwayne Banks’s motion pursuant to Title 28,
United States Code, Section 2255, to vacate, set aside, or correct his sentence. Petitioner made a
similar request in his recently filed ^Motion for Reduction in Sentence Pursuant to Both 18
U.S.C. § 3582(c)(2) and Coram Nobis,” ECF No. 238, which is also addressed in this response.
The Government respectfully submits that Petitioner’s motions should be denied because the
Court already explicitly rejected argument in its Order of October 11, 2016, and because his
claim is in any event without merit. ECF No. 223.
I.

FACTUAL AND PROCEDURAL BACKGROUND
A.

The Case Against Petitioner and Other Members of the Imperial Gangsta Blooda.

On April 22, 2015, the grand jury sitting in Norfolk returned a Third Superseding
Indictment charging Petitioner with conspiracy to manufacture, distribute, and possess with
intent to distribute one kilogram or more of a mixture and substance containing a detectable

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 2 of 19 PagelD# 1528

amount of heroin, in violation of 21 U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(A) (Count One);
and possession with intent to manufacture and distribute one kilogram or more of a mixture and
substance containing a detectable amount of heroin, in violation of 21 U.S.C. §§ 841(a)(1) and
841(b)(1)(A) (Count Two).

ECF No. 69.

Petitioner’s co-defendants—his half brother,

Christopher Smith, a/k/a “Killa,” and Ricky Jackson, a/k/a “Sosa,” both high-ranking members
of the Imperial Gangsta Bloods, each faced an additional charge of possession with intent to
distribute over 100 grams of heroin; the grand jury also charged Smith with possessing firearms
in furtherance of a drug trafficking crime. Id.
Counts One and Two carried a mandatory minimum term of ten years’ imprisonment and
a maximum term of life imprisonment. See 21 U.S.C. § 841(b)(1)(A). On March 25, 2015,
Petitioner made his initial appearance in federal court. ECF No. 56. CJA attorney Trey Kelleter
was assigned to represent him. ECF No. 60.
On July 28, 2015, less than a week before trial, Petitioner’s brother pleaded guilty to
Counts One and Four of the indictment. ECF Nos. 144-148. Petitioner had been scheduled to
enter a guilty plea the same day, but did not go forward with the change of plea hearing on July
28. ECF No. 142. Two days later, on July 30, 2015—four days before trial—Petitioner pleaded
guilty to the heroin conspiracy charge in Count One. ECF Nos. 150-154.
The Probation Office then prepared a Presentence Investigation Report (the “PSR”). See
ECF No. 239. The PSR’s recounting of the offense conduct was taken from the statement of
facts signed by Petitioner at his change of plea hearing. PSR Tf 9; ECF No. 152. According to
the statement of facts, Petitioner, like all of the defendants in the case (including two who
pleaded guilty before Petitioner was indicted), was a member of the Imperial Gangsta Bloods.
He and other members of the gang conspired to distribute heroin in the Hampton Roads area.

2

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 3 of 19 PagelD# 1529

Most of the heroin was imported from New York City. While Petitioner was not a leader or
organizer of the conspiracy, his role included travel to New York to purchase bulk amounts of
heroin; he was also a street-level heroin dealer. PSR If 9. The amount of heroin the group
moved was substantial. The men initially purchased the drugs locally, in $10,000 increments.
Id. Later, the group was supplied by Ricky Jackson, a New York-based Imperial Gangsta Bloods
General who was able to procure large amounts of high-purity heroin. Id. Petitioner and others
traveled to New York twice to procure heroin from Jackson on behalf of the conspiracy. Id.
Once the heroin was “cut,” he and other members of the gang distributed it to local users. Id.
The gang members did not just distribute heroin. They also were involved in significant
violence in the city of Portsmouth during the summer of 2014. In particular, the gang had
several altercations with a rival heroin operation run by the Saunders brothers, Portsmouth-based
twins who were separately prosecuted in federal court. See Crim. Case No. 2:15cr2. In August
2014, Smith gave an order for the Saunders brothers to be eliminated. PSR If 9. On August 19,
2014, gang members ambushed one of the Saunders brothers and shot him three times (he
survived). Id. Four days later, members of the gang attacked a stash house used by the Saunders
brothers. Id. Shots were exchanged but no one was injured. Later that night, a member of the
gang instructed Petitioner and Howard Foust, who was also prosecuted in this case, to follow the
girlfriend of one of the Saunders brothers. They were pulled over before they could find her. Id.
Petitioner later texted his half-brother Smith, “dnt let des ppl trice u of des streets be safe n kill
em all if you go to”—translated from text-speak, “Don’t let these people trick you off these
streets, be safe and kill them all if you got to.” Id.
Once Smith was arrested and several members of the gang began cooperating with law
enforcement, Petitioner posted on his Facebook page the following message about Smith, who

3

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 4 of 19 PagelD# 1530

held a “Godfather” rank in the gang: “It’s always consequences behind tryna fu*k ova a madeMan.” Id. Petitioner was not the only defendant to engage in threatening conduct directed at
intimidating witnesses, and his text message must be read in the context of the other obstructive
conduct in the case. In particular, Smith had sent text messages threatening violence against an
individual he believed was cooperating with the government, and in other text messages he
bragged about the ability his rank within the gang gave him to order acts of violence in local
jails. See ECF No. 113, Gov’t Response to Motion to Reinstate Institutional Phone Privileges, at
2. He compared the attempts to kill the Saunders brothers, described above, to hunting deer. Id.
at 3. Eventually, after he used the jail telephone to convey coded orders for violence against
people he believed were cooperating with the government, his access to the jail telephone was
cut off. Id. at 3-7.
B.

Petitioner’s Guidelines Calculation and Sentencing.

The PSR attributed one kilogram of heroin directly to Petitioner. PSR

11. That was a

conservative estimate—it did not factor in, to avoid potential double counting, Petitioner’s own
heroin dealing; it also did not attribute all of the heroin involved in the conspiracy to Petitioner.
In other words, on his own account—without considering the breadth of the conspiracy—
Petitioner qualified for the highest chargeable threshold of heroin available in the federal code,
21 U.S.C. § 841(b)(1)(A).

His guidelines range was enhanced because of his obstructive

behavior, including the Facebook post threatening those who were, in Petitioner’s eyes, trying to
“fu*k over” Smith. PSR ^ 14. Because of Petitioner’s obstructive conduct, the probation office
declined to grant the two-level reduction for acceptance of responsibility. PSR Tf 15. Petitioner’s
total offense level initially was calculated at 32. PSR

4

17-25.

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 5 of 19 PagelD# 1531

He had a number of prior convictions, including possession with intent to distribute
drugs, heroin possession, multiple trespassing convictions, carrying a concealed weapon,
recklessly handling a firearm, petit larceny, multiple failures to appear, and a surprisingly large
number of traffic violations, including “driving while suspended, 6th or subsequent offense” and
multiple convictions for reckless driving. PSR

29-44. He appears to have had a total of at

least twenty-eight arrests or other encounters with the police, not counting the instant offenses.
PSR

29-59. Despite his lengthy record, he was assigned a criminal history Category IV. PSR

76. The Probation Office calculated his guidelines range as 168-210 months, with a mandatory
minimum of 120 months. PSR ^ 76. The probation office did not consider a minimal role
reduction, and defense counsel did not object to the lack of a minimal role reduction.
Petitioner filed his sentencing position paper on October 22, 2015. ECF No. 172. He
objected to both the two-level enhancement for obstruction of justice and to the denial of an
offense level reduction for acceptance of responsibility. Id. He also moved for a downward
departure, under U.S.S.G. §4A1.3(b), arguing that his criminal history category substantially
. over-represented his criminal history. Petitioner argued, as he did at sentencing, that he was a
small-time dealer whose involvement in the larger conspiracy was due to the influence of his
half-brother Smith.
The government, in its position paper, agreed that Petitioner should receive the two-level
reduction for acceptance of responsibility. ECF No. 173 at 2-3. The government noted, in
response to Petitioner’s arguments, that while he was not the leader of the conspiracy, his role
within it grew over time, to the point where he traveled without Smith, with only Smith’s
girlfriend, to New York to purchase a bulk quantity of heroin from the conspiracy’s supplier. Id.

5

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 6 of 19 PagelD# 1532

at 5. The government also recounted Petitioner’s role in working with another gang member to
search for the Saunders brothers after a gun battle in August 2014. Id. at 6.
On October 30, 2015, the Honorable John A. Gibney, Jr., conducted the sentencing
hearing. The Court denied the two motions Petitioner filed on his own account, “for ineffective
counselor” and “for violation of the sentencing guidelines order,” after patiently explaining the
sentencing process to Petitioner. ECF Nos. 174-175; see Transcript of Proceedings, Oct. 30,
2015, attached as Exhibit A, at 3-12. The Court agreed to reduce Petitioner’s offense level by
two points to reflect his acceptance of responsibility but upheld the two-point enhancement for
obstruction of justice. Ex. A at 17. That change resulted in a lowered guidelines range of 135168 months. Id.
In its sentencing argument, the government agreed with the defense that Petitioner was
the lowest-ranked member of the gang charged in the conspiracy, and that he was the least
culpable of the charged defendants. As it stated, however, “that’s within a highly culpable
group .... Saying he is least culpable here is not to minimize his conduct.... Which is extremely
serious.” Id. at 20. It noted that Petitioner was present during two of the four trips to New York
to purchase bulk quantities of high-purity heroin, and that he was the only charged defendant
“involved in both the bulk purchases and the street-level sales.” Id.

As the government

explained, “he was not just a mule .... After [the heroin] was cut and expanded, he was out on
the street dealing with street-level users .... When his brother couldn’t go [to New York], he
went in his brother’s place.” Id. at 20-21. The government also explained that, while Petitioner
was not directly involved in gun violence during the conspiracy, “he was in the car with [a co­
defendant gang member] when they were staking out the girlfriend of one of the Saunders
brothers after the shooting.” Id. at 22.

6

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 7 of 19 PagelD# 1533

Defense counsel argued at sentencing that Petitioner should be sentenced to the
mandatory minimum, arguing that he was a lower-level conspirator who would have remained
only a street-level dealer were it not for the influence of Smith and suggesting that Petitioner did
not play an active role during the trips to New York to purchase heroin. Id. at 25-26.
The Court sentenced Petitioner to 135 months’ incarceration—at the low end of the
recalculated guidelines range. In doing so, the Court explained that Petitioner was part of a
major, violent, lawless gang in Portsmouth” who “provided support to their ... business model,”
went on trips to purchase heroin, and was involved in distributing the heroin once he returned.
Id. at 26-27. The Court agreed that Petitioner had been “in the thrall of his [half] brother when
he did this,” but stated that “[i]t’s all very, very serious conduct.” Id. at 29-30. The Court
explicitly took into account, in sentencing Petitioner at the low end of the guidelines, that in
comparison to other Bloods members Petitioner was “certainly not the worst.

Id. at 30. While

Petitioner was sentenced to 135 months—only 15 months above the mandatory minimum, and
significantly less than what the government requested—Smith was sentenced to life in prison.
ECF No. 192 (Banks Judgment); ECF No. 188 (Smith Judgment).
C.

Post-Conviction Litigation.

Petitioner, as part of his plea agreement, waived his right to appeal his conviction and
any sentence within the statutory maximum described above (or the manner in which that
sentence Was determined) on the grounds set forth in 18 U.S.C. § 3742 or on any ground
whatsoever, in exchange for the concessions made by the United States in this plea agreement.”
ECF No. 151 (Banks Plea Agreement), at f 5.
1 While the government’s primary argument is that the Court already has resolved in the
government’s favor the only issue raised in Petitioner’s motions, it notes that other courts have
held that a valid waiver of the right to appeal a sentence precludes a petitioner from attempting to
attack the sentence in a collateral proceeding by claiming ineffective assistance of counsel at
7

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 8 of 19 PagelD# 1534

On March 4, 2016, Petitioner moved to reduce his sentence and for the appointment of
counsel. ECF Nos. 211-212. The Court denied his motion the same day. ECF No. 212. On
August 4, 2016, Petitioner wrote to the Court to ask for a reduction in his sentence based on the
2015 amendment to the “minor role reduction” sentencing guideline, which took effect shortly
after his sentencing, asking that his letter be treated as a § 2255 application. ECF No. 216. The
Court appointed the Federal Public Defender to represent Petitioner and file a supplemental brief
regarding his eligibility for relief. ECF No. 217.
On October 4, 2016, the Federal Public Defender filed a brief explaining that Petitioner’s
filing could be construed as a motion under 18 U.S.C. § 3582(c) or 28 U.S.C. § 2255. Defense
counsel suggested that Petitioner was not eligible for relief under § 3582(c), and noted that, to
the extent the Court construed the motion as being made under § 2255, his sentence was not
illegal when imposed, was not imposed in violation of the law, and did not have “any other
defects cognizable under § 2255(a).” ECF No. 222 at 5. Defense counsel stated that it was not
aware of any cases holding that Amendment 794—which revised the standards for the minor role
reduction in U.S.S.G. § 3B1.2, and which took effect several days after Petitioner’s sentencing—
could be applied retroactively on collateral review. Id. Counsel stated, however, that Petitioner
“might have a potential ground for an ineffective assistance of counsel claim under § 2255 to
potentially achieve the benefit of Amendment 794,” purportedly because his prior counsel could
have asked to continue the sentencing so that it would take place after Amendment 794 became
part of the Sentencing Guidelines, or asked the Court to apply Amendment 794 pre-emptively.
Id. The Federal Public Defender did not analyze whether Petitioner would have been eligible for
relief under either the pre- or post-Amendment 794 version of U.S.S.G. §3B1.2. Nor did
sentencing. See, e.g., Williams v. United States, 396 F.3d 1340, 1342 (11th Cir. 2005) (stating
that every Circuit to have address the issue has so held, and collecting cases).
8

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 9 of 19 PagelD# 1535

counsel cite any case holding that defense counsel could be found ineffective for failing to move
to continue a sentencing to take advantage of a forthcoming guidelines amendment.
After reviewing defense counsel’s filing, the Court denied Petitioner’s motion. ECF
No. 223 (Order of Oct. 11, 2016). The relevant portion of the Order reads as follows:
The defendant seeks a sentence reduction based on Amendment
794 to the United States Sentencing Guidelines, which clarifies the
mitigating role reduction available in §3B1.2. The Sentencing
Commission, however, did not make Amendment 794 retroactive.
See U.S.S.G. § 1B1.10. Accordingly, the defendant is not entitled
to a sentence reduction. Regardless, even if the Court did
consider the amended § 3B1.2, the defendant did not play a
“minimal” or “minor” role in the offense. Thus, upon due
consideration, the Court DENIES the defendant’s motion for
sentence reduction.
ECF No. 223 (emphasis added). Thus, Judge Gibney already has held that the Petitioner’s sole
basis for the instant § 2255 motion and the pending motion styled as a “coram nobis” petition is
invalid.
Twenty days after receiving the Court’s order, Petitioner filed another handwritten
petition, styled as a “Motion for Ineffective Assistance of Counsel” under § 2255. ECF No. 224.
In that motion, he again asks the Court to modify his sentence based on Amendment 794,
arguing that his counsel at sentencing was ineffective for not trying to continue the sentencing
until after Amendment 794 went into effect. It is unclear from the docket whether the motion
was referred to a Magistrate Judge. (Smith’s § 2255 motion was referred to the Magistrate
Judge, see Docket Text Entry, Aug. 8, 2017.) On August 9, 2017, Magistrate Judge Roderick
Young ordered the government to respond to both Smith’s and Petitioner’s § 2255 motions
within 60 days. ECF Nos. 232-233. The government responded to Smith’s motion, see ECF
No. 235, but failed to respond to Petitioner’s motion.

9

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 10 of 19 PagelD# 1536

The government respectfully submits that no evidentiary hearing is necessary and asks
the Court to deny Petitioner’s § 2255 motion and his related “coram nobis” petition filed on
March 7, 2019, and docketed as ECF No. 238. The motions must be denied because the Court
already has rejected the sole rationale for Petitioner’s ineffective assistance claim, and in any
event that claim lacks merit.
II.

STANDARD OF REVIEW
Pursuant to 28 U.S.C. § 2255, there are four cognizable grounds upon which a federal

prisoner may move to vacate, set aside,-or correct his sentence: (1) constitutional issues;
(2) challenges to the District Court’s jurisdiction to impose the sentence; (3) challenges to the
length of a sentence in excess of the statutory maximum; and (4) claims that the sentence is
otherwise subject to collateral attack. See 28 U.S.C. § 2255. “Relief under 28 U.S.C. § 2255 is
reserved for transgressions of constitutional rights and for a narrow range of injuries that could
not have been raised on direct appeal and would, if condoned, result in a complete miscarriage of
justice.” Jones v. United States, 2010 WL 451320, at *4 (E.D. Va. Feb. 8, 2010) (quoting United
States v. Vaughn, 955 F.2d 367, 368 (5th Cir. 1992)). The movant bears the burden of proving
his grounds for collateral attack by a preponderance of the evidence. Miller v. United States, 261
F.2d 546, 547 (4th Cir. 1958) (per curium).
Ill,

ANALYSIS
Petitioner asserts his lawyer provided ineffective assistance by not asking the Court to

continue the sentencing hearing so that Amendment 794’s edits to the minor role reduction
application notes to U.S.S.G. § 3B1.2 would have taken effect by the time Petitioner was
sentenced. ECF No. 224, § 2255 Motion, at 1.

10

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 11 of 19 PagelD# 1537

Amendment 794, which took effect on November 1, 2015, two days after Petitioner was
sentenced, introduced several changes to the application notes to U.S.S.G. § 3B1.2—not to the
sentencing guideline itself.2 Section 3B1.2 allows for a four-point offense level reduction if a
defendant was a “minimal participant in any criminal activity,” a two-point reduction if a
defendant was a “minor participant in any criminal activity,” and a three-point reduction if a
defendant’s role fell between that of a minor and a minimal participant. U.S.S.G. § 3B1.2. The
application notes were edited, inter alia, to include several non-exhaustive factors for a court to
consider in weighing whether to apply the reduction, including:
(i) the degree to which the defendant understood the scope and
structure of the criminal activity; (ii) the degree to which the
defendant participated in planning or organizing the criminal
activity; (iii) the degree to which the defendant exercised decision­
making authority or influenced the exercise of decision-making
authority; (iv) the nature and extent of the defendant’s participation
in the commission of the criminal activity, including the acts
performed and the responsibility and discretion the defendant had
in performing those acts; (v) the degree to which the defendant
stood to benefit from the criminal activity.
2015 Proposed Amendments at 48. The amendment also added the statement that “a defendant
who does not have a proprietary interest in the criminal activity and who is simply being paid to
perform certain tasks should be considered for an adjustment,” and that “[t]he fact that a
defendant performs an essential or indispensable role in the criminal activity is not
determinative. Such a defendant may receive an adjustment under this guideline if he or she is
substantially less culpable than the average participant in the criminal activity.” Id.
Proposed guidelines amendments, like Amendment 794, are submitted to Congress under
28 U.S.C. § 994(p). See 2015 Proposed Amendments at ii. They only become effective by

2 See https://www.ussc.gov/sites/default/files/pdf/amendment-process/reader-friendlyamendments/20150430_RF_Amendments.pdf- the “2015 Proposed Amendments” - describing, at pages 45-49, the
proposed edits to the application notes, which are shown in redline.

11

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 12 of 19 PagelD# 1538

operation of law if Congress does not act to block or amend them. Id. Congress can alter,
change, or refuse to allow an amendment to become operative if it acts before the effective date,
which in the case of Amendment 794 was November 1, 2015. In other words, the fact that a
guideline amendment is proposed does not mean it will automatically become part of the
Sentencing Guidelines on the effective date.
A.

Defense Counsel Provided Effective Assistance.
1.

Legal Standard For Claims Of Ineffective Assistance Of Counsel.

Under well-settled principles first articulated by the Supreme Court in Strickland v.
Washington, an individual alleging ineffective assistance of counsel must demonstrate: (1) that
his attorney’s performance was constitutionally deficient; and (2) that he was so prejudiced by
his attorney’s deficient performance that there is a reasonable probability that, but for the
deficiencies, the result of the proceeding would have been different. Strickland v. Washington,
466 U.S. 668, 687-89 (1984); see also Lockhart v. Fretwell, 506 U.S. 364, 369 (1993).
The “deficient performance” component of this two-pronged formulation requires a
litigant to demonstrate “that counsel made errors so serious that counsel was not functioning as
the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Strickland, 466 U.S. at 687.
That is, a litigant must show that his attorney’s performance fell below an objective standard of
reasonableness. Id. at 688. Judicial scrutiny of an attorney s performance must be highly
deferential” and “indulge a strong presumption that counsel’s conduct falls within the wide range
of reasonable professional assistance.” Id. at 689. Furthermore, in considering whether an
attorney performed below the level expected of a reasonably competent attorney, it is necessary
to “judge the reasonableness of counsel’s challenged conduct on the facts of the particular case,
viewed as of the time of counsel’s conduct.” Id. at 690. As stated by the Fourth Circuit, the

12

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 13 of 19 PagelD# 1539

standard for deficient performance is “not merely below-average performance; rather, the
attorney’s actions must fall below the wide range of professionally competent performance.”
Griffin v. Warden, Md. Corr. Adjustment Ctr., 970 F.2d 1355, 1357 (4th Cir. 1992).
The “prejudice” component of Strickland requires a litigant to show that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. This prong of the Strickland test
focuses on whether an attorney’s deficient performance rendered the result of the proceeding
unreliable or fundamentally unfair. Id. at 687. The defendant “bears the burden of proving
Strickland prejudice,” and “[i]f the defendant cannot demonstrate the requisite prejudice, a
reviewing court need not consider the performance prong.” Fields v. Attorney Gen. of State of
Md., 956 F.2d 1290, 1297 (4th Cir. 1992).
A litigant who alleges ineffective assistance of counsel following the entry of a guilty
plea, as Petitioner does here, has an even higher burden to meet. See, e.g., Hill v. Lockhart, 474
U.S. 52, 53-59 (1985); United States v. Dyess, 478 F.3d 224, 237 (4th Cir. 2007), cert, denied,
552 U.S. 1063 (2007). In such cases, the “prejudice” prong of Strickland is “slightly modified.
Such a defendant ‘must show that there is a reasonable probability that, but for counsel’s errors,
he would not have pleaded guilty and would have insisted on going to trial.’” Hooper v.
Garraghty, 845 F.2d 471, 475 (4th Cir. 1988) (quoting Hill v. Lockhart, 474 U.S. 52, 59 (1985)).
The failure of a litigant to meet either component of the Strickland test defeats an
ineffective assistance of counsel claim. Strickland, 466 U.S. at 700. The court need not address
both components of the test if the litigant makes an insufficient showing on one prong of the test.
Id. at 697. Additionally, a petitioner is not entitled to a hearing on an ineffective assistance of
counsel claim based on “[unsupported, conclusory allegations.” Nickerson v. Lee, 971 F.2d

13

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 14 of 19 PagelD# 1540

1125, 1136 (4th Cir. 1992), abrog’n on other grounds recog’d, Yeatts v. Angelone, 166 F.3d 255
(4th Cir. 1999). Here, Petitioner cannot satisfy either of Strickland’s requirements.
2.

The Court Already Held that Petitioner Cannot Show Prejudice.

Because the Court’s order of October 11, 2016, resolves the instant motion, the
government will first discuss the prejudice prong and then explain why counsel’s performance
was not deficient.
Even assuming that effective assistance would have required defense counsel to move to
continue a sentencing so that a guidelines amendment would take effect, defense counsel s
decision not to ask for a sentencing, continuance could only potentially be prejudicial if the
guidelines amendment would have made Petitioner eligible for a minimal role reduction. This
Court already has held that it would not have. In his October 11, 2016, Order, Judge Gibney
stated that, “even if the Court did consider the amended § 3B1.2, the defendant did not play a
‘minimal’ or ‘minor’ role in the offense.” ECF No. 223.
That Order resolved the only argument presented here, and that Order is binding on
Petitioner, both through law-of-the:case doctrine and traditional estoppel principles. Cf Sealfon
v. United States, 332 U.S. 575, 578 (1948) (holding that the principle of res judicata “applies to
criminal as well as civil proceedings”). As the Supreme Court explained in Bravo-Fernandez v.
United States, “[i]n criminal prosecutions, as in civil litigation, the issue-preclusion principle
means that when an issue of ultimate fact has once been determined by a valid and final
judgment, that issue cannot be litigated between the same parties in any future lawsuit.” 137
S. Ct. 352, 356 (2016) (internal quotation and citation omitted).
Even if Petitioner were allowed to relitigate the same issue through what is in effect a
successive habeas application, he would still lose on the merits. He was far from a minor or

14

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 15 of 19 PagelD# 1541

minimal participant in the charged conspiracy and would not qualify, before or after Amendment
794, for a role reduction under U.S.S.G. §3B1.2.

While his actions were somewhat less

egregious than those of the other gang members who took part in the conspiracy, he was not
“substantially less culpable” than the average participant in this conspiracy, especially as this
was a case in which only higher-level conspirators were charged and every charged conspirator
acted egregiously. U.S.S.G. § 3B1.2, application note 3, as amended.
In fact, among the four charged defendants—excluding Smith, whose record and actions
made him substantially more culpable than any other co-conspirator—only Petitioner was
involved in both transporting large amounts of heroin from New York to Hampton Roads and
distributing that heroin to end-users in the local area,

He was personally attributed,

conservatively, with one kilogram of heroin—even without considering the significantly higher
amount of heroin moved by the other, co-conspirators in the group, or the heroin Petitioner was
selling on the street. PSR U11; see PSR Addendum at 23 (noting that post-“cut” weight of the
heroin imported from New York was approximately 3.5 kilograms). While he was not directly
involved in the shooting incidents, he and fellow gang member Howard Foust attempted to track
down the Saunders brothers—via one of their girlfriends—after the last shooting in August 2014.
The intent, presumably, was not to exchange pleasantries. Luckily for Petitioner, he and Foust
were stopped before they found their target.

Also unlike the other co-conspirators, again

excluding Smith, Petitioner was the only individual who actively obstructed justice and received
an enhancement for doing so. On these facts—as the Court already has held—there is no way
Petitioner qualifies as a minor or minimal participant in the conspiracy. Because he cannot show
any prejudice under Strickland’s second prong, his motion must be denied. See Strickland, 466
U.S. at 687-89.

15

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 16 of 19 PagelD# 1542

3.

Counsel Did Not Perform Inadequately.

Petitioner’s motions fail on the first prong of Strickland as well. Neither Petitioner nor
the Federal Public Defender cited, and the undersigned has not located, any case in which a court
has found counsel ineffective for failing to move to continue a sentencing so as to potentially
take advantage of a forthcoming proposed amendment to the sentencing guidelines. In fact,
some courts have suggested that such a motion would be inappropriate.
As the Federal Public Defender noted in its brief on Petitioner’s behalf, a sentencing
court is required to use the guidelines manual in effect on the date a defendant is sentenced. ECF
No. 222 at 3 (citing Dorsey v. United States, 132 S. Ct. 2321, 2332 (2012)).

Forthcoming

amendments to the sentencing guidelines are not applicable until their effective date, and, in
theory at least, Congress could block them at any point before they take effect. A request to
continue a sentencing because a guidelines amendment may take effect, which may lead to a
different guidelines range, is speculative and, as noted below, arguably improper. A holding that
a defense attorney is ineffective for failing to attempt to game the timing of the guidelines
amendments would create perverse incentives: defense attorneys would feel compelled to
attempt to delay any sentencing potentially affected by a proposed—i,e., a possible—guidelines
amendment until after November 1 of any given year, when the proposed amendments typically
take effect. If a court were to hold counsel ineffective for making such a request, sentencing
continuance requests would become practically mandatory in any number of cases,

Such a

practice would destroy the district court’s ability to manage its docket and the timing of
sentencings.
Several courts have denied § 2255 motions premised on a similar ineffective assistance
argument while pointing to the practical difficulties accepting such an argument would cause. In

16

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 17 of 19 PagelD# 1543

Romero v. United States, the district court rejected the claim under both prongs of Strickland.
2017 WL 4516819, at *6 (S.D.N.Y. Sept. 21, 2017). The court noted that the Second Circuit
held in United States v. Prince, 110 F.3d 921, 926 (2d Cir. 1997), that defense counsel’s failure
to request a continuance so as to take advantage of a pending amendment to the guidelines was
not objectively unreasonable and did not qualify as ineffective assistance. 2017 WL 4516819, at
*6. Numerous other courts have rejected a similar claim on similar reasoning. See id. (citing,
inter alia, United States v. Briceno-Rodriguez, 47 Fed. App’x 167, 169 (3d Cir. 2002) (“The
proposed amendment was just that—a proposed amendment.... There was no guarantee that
Congress would approve the amendment... we will not hold counsel accountable simply
because Congress in fact did so.”); United States v. Garcia, No. 92-50675, 999 F.2d 545, 1993
WL 263459, at *1 (9th Cir. July 13, 1993) (“[T]he opportunity for a better sentence under a new
Amendment to the Guidelines is not a legitimate reason to request a continuance .... Granting a
continuance on this basis would greatly inconvenience a district court’s ability to impose
sentence as defendants would repeatedly seek continuances and cause delays upon learning of
Amendments to the Guidelines that may benefit the defendant but are yet to take effect.”)).
Likewise, in Allen v. United States, 2010 WL 703115 (M.D.N.C. Feb. 24, 2010), the
court explained:
Although Petitioner’s attorney could have perhaps made a motion to continue
sentencing in hopes that the pending Guidelines amendments would reduce
Petitioner’s sentence, Petitioner cannot demonstrate that he was prejudiced
because no such motion was made.... [Mjotions to continue sentencings based on
pending Guidelines amendments pose particular problems. Amendments to the
Guidelines are proposed months in advance and may or may not eventually be
allowed by Congress to become effective. If the rationale suggested by Petitioner
were correct, numerous sentencings which could be affected by pending
amendments would have to be stayed for months due to proposed amendments
even though the amendments might never go into effect. This presents ample
rationale for rejecting motions to continue based on pending Guidelines
amendments. It also means that it would appear unlikely that the motion to
17

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 18 of 19 PagelD# 1544

continue that Petitioner claims his attorney should have filed would have been
granted. He cannot show that his attorney provided him with ineffective
assistance of counsel by not filing the motion. His claim is too speculative to
proceed.
2010 WL 703115, at *2 (citation and footnote omitted).
In Beaver v. United States, the district court rejected a similar argument because the
petitioner failed to identify which guidelines amendment would have benefited him, but also
because he did not explain how an amendment would have lowered his sentence, failed to make
any showing that the government or the Court would have consented to a delay in sentencing,
and did not show he had any right to be sentenced under what were then-forthcoming
amendments. 2017 WL 708728, at *3 (W.D.N.C. Feb. 22, 2017); see also United States v.
Lawin, 779 F.3d 780, 781-82 (8th Cir. 2015) (finding district court did not abuse its discretion in
denying a defendant’s request to continue a sentencing hearing until after new guidelines
amendments took effect).
Additionally, at least one court has held that it would be affirmatively improper for a
judge to grant or deny a continuance so as to change the applicable sentencing guidelines. In
United States v. Tanner, Judge Posner, addressing a similar argument, stated that the district
court’s “power to grant or deny a continuance is abused when it is exercised not in order to
manage a proceeding efficiently but in order to change the substantive principles applicable to a
case. ” 544 F.3d 793, 796-97 (7th Cir. 2008) (citing United States v. Gonzalez-Lerma, 71 F.3d
1537, 1542 (10th Cir. 1995), overruled on other grounds in United States v. Flowers, 464 F.3d
1127, 1130 n.l (10th Cir. 2006) (stating that the defendant’s argument would create “an ominous
situation in which every attorney whose client faces sentencing would attempt to delay
sentencing each time lawmakers debate a new standard or amendment. This is an outcome that
we cannot allow.”)).
18

;

Case 2:15-cr-00007-JAG-DEM Document 240-1 Filed 03/22/19 Page 19 of 19 PagelD# 1545

It is arguable, then, whether it would even have been appropriate for the defense attorney
to ask for a continuance, or for the Court to grant one, on the basis that amended sentencing
guidelines would favor (or disfavor) Petitioner. A fortiori, defense counsel did not provide
ineffective assistance by failing to make such a motion. And that is before taking into account
the failure of Petitioner’s argument that he would have benefited from the guidelines
amendments. As described above, and as this Court already has held, he would not have. Under
these circumstances, there can be no doubt that his counsel was not ineffective for failing to
make an arguably improper motion in the hopes of achieving an impossible result. Petitioner’s
/
claim for relief is without merit, and his motions should be denied.
IV.

CONCLUSION
For the foregoing reasons, the Government submits that Petitioner has no grounds for

relief under 28 U.S.C. § 2255 or pursuant to a “coram nobis” petition, and that his motions,
including the motion to vacate, set aside, or correct his sentence, should be denied.

Respectfully submitted,
G. ZACHARY TERWILLIGER
UNITED STATES ATTORNEY
By:

/si
Andrew Bosse
Assistant United States Attorney
United States Attorney’s Office
101 West Main Street, Suite 8000
Norfolk, VA 23510
Phone: 757-441-6331
Fax: 757-441-6689
Email: andrew.bosse@usdoj.gov

19

D
pp^itipA

of M<? BaJIS

FiliJa1; J- tfpsfkjsp5
1)3 Kl RftAS,

L£

9-', \5Cl07

IN THE UNITED STATES DISTRICT

COURT FOR THE

THE EASTERN DISTRICTJDF^Vf^^IA, NORFOLK DIVISION
bother. ho^tk carouw

Dwayne Banks,
Petitioner-Pro Se

date:
Th«

’

------

n

"“Sicfe/UKJK- JV-Ail.”

t£:tcf V'lr S f irncsv-SEd

:or

'.vr.w

vs

-Case No ( s) : 2:15-CR7
2:16-CV-637

F-.rounh ssp*' wailing
has bsan
VM T|‘
cj'r-st'on
s«
r
!'/. -i ‘ft•v- ili

for

United States of America

• -:r

PETITIONERS TIMELY RESPONSE TO ALL OF THE GOVERNMENTS FILINGS

Comes now the petitioner, Mr. Dwayne Banks, hereby pro se, to file
his timely reponses, to the governments [2 yrs delayed,

filing and

responses] that this court must deny and strike from the record.
However, the petitioner has now become aware that the 2255 was
still pending & therefore, request that the Court convert the sub­
sequent filings as additional attachments to the 2255 as supplements
instead of the 3582 /Coram Nobis filings and Grant the 2255 filing
and Order the Resentencing of Banks based upon, the counsels ineffec­
tiveness and the subsequent clarifying amendments for the. Strict
Liability Reduction, Minor/Mitigating Role. Reduction and the Addi­
tional Levels for the Timely Acceptance , which are all clarifying
and retroactive and even came forth since the delayed filings,..

Respectfully submitted on this j^rlay of April, 2019 by

s/

0^2
Mr. Dwayne Banks

1

ARGUMENTS WARRANTING RELIEF
The Court has received prior filings that show that the petitioner
is entitled to be Resentenced in accordance with the clarifying
laws and amendments thereof. A clarifying amendment shows the Courts
"how and when " the law was and is supposed to be applied on various
issues. In this case, the Commission issued and passed

3 separate

amendments, which all directly affect the petitioners sentence and
shows that he was incorrectly sentenced and requires the Resentenc.i ng.
1. Amendment 794 Minor / Mitigating Role reduction
2. Acceptance of Responsibilty full Reduction (Effect Nov, 1,2018)
3. Strict Liability drug quantity reduction
The Court ordered the government to repond to the petitioner's
2255 in 2016, in which the government has [now]

conceded that it

failed to respond to Banks, but that it did respond to the other
co-defendants. Therefore, the government is requesting a "extra­
ordinary action from the Court and requesting for the Court to allow
the 2 yr plus delay

to be overlooked and even cites some case to

this position. Unfortunately , none of the cases cited by the government allowed any government officials a 2-3 vr extension, So the
governments motions arid responses must all be struck from the record
and. the government doesn't get a 2nd bite at the apple according
to the new 4th circuit case law of US v Hodge 17-6054, the govern­
ment has lost its right.
Next

the petitioner filed under the claim of ineffective assistance

and the former counselors failure to request the mere extension of
2

2-3 days,- which would have possibly changed the outcome of the
sentence for Mr. Banks. Even the original lawyer that was appointed
when I filed the motion for reduction originally conceded that this
is a ground for ineffective assistance and the petitioner did raise
it as that and is entitled to the reductions today and even a Eviden­
tiary Hearing to resolve why the counsel who is suppose to stay
abreast of the current changes in the laws would not have requested
the miniscule delay especially when it went into effect 2 days later
and also possibly shortened the sentence of their client.
The 11th Circuit has just resolved a case such as this on the 2255
forum , where the defendant raised the issues under the IAC claims
and the Amendment 794 issues. (Hipp v US 740 Fed. App'x 186 ,17-13858
(11th Cir. 2018). The 11th Circuit Vacated and Remanded for the
Court to properly evaluate the merits of the claims and then Grant
the Relief being sought, which was the reduction based upon;the
clarifying and retroactive amendments, that could not be raised in
the 3582 forum and coiild not be given the reduction, unless raised
in such colorful forum as the IAC and 2255 or Direct Appeal stages.
Therefore -r f,

the petitioner is entitled to be be properly sentenced

and is also entitled to-the additional points off (3.points instead
of 2 points) and is also entitled to to be sentenced based soley
upon his own minor conduct and not the full range of conduct •
Therefore,the petitioner moves for the Court to Vacate the Sentence
and to Issue the Revised PSR and Resentence the Petitioner as well
as Grant the

Evidentiary Hearing.
3

Respectfully submitted on this

day of April, 2019

S/
Mr. Dwayne Banks
Fed NO. 85470-083
FCI Butner II
PO Box 1500
Butner,NC 27509

28 USC 1746

Certificate of Service

I, Dwayne Banks, do hereby swear under the penalty of perjury that
a copy of the 2255 Response has been sent to the E..D..V.A Norfolk
Division District Court and a copy has been sent to the AUSA of
Record, Andrew Bosse, 101 w.Main St'.,, Suite 8000, Norfolk,. VA 2351 0
on this

day of April, 2019 from FCI Butner II.
S/
Mr. Dwayne Banks

4

IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA (NORFOLK)
Dwayne Banks
Petitioner-Pro Se

Case No. 2:1.5CR7

vs
United States of America

Motion for Reduct j. ori1_n S p n t- p p r q . n u r s u a n t to
both 18 (]JSC~~3582(c) [2) and Coram NoM^

Comes now the petitioner

Mr. Dwayne Banks, hereby pro se,humbly

before the Court to file this Motion for Reduction in his Sentence
pursuant to the Retroactive and Clarifying Amendments of Amendmen ts
790,794 & 811'

Acceptance of Responsible ty Clarifiving Amendment effec-

tive Nov. 1,2018.(See Attached)

I.

FACTS WARRANTING REDUCTION

The petitioner was indicted for various drug offense violations
in which the petitioner plead guilty to ct-1
-bute

.Conspiracy to Distri

narcotics stemming from the 2013-2015 era.(See Doc 151) As

a part of the plea, the petitioner would be given the 2-3 levels
off for acceptance, but he was not given it at sentencing.

A1 s o a s

part of the plea, the statement of facts clearly showed that Banks
was not the leader of the organization but

.instead was a mere

participant and at times did not even know what was going on and
that Banks had a

limited position in the hierarchy.(see Doc 152
1

p.l.parg 1..the defendant was neither the leader nor an organizer
within the conspiracy).
However, after the plea, the PSR was prepared and determined that
Banks "played a minor role in the conspiracy" and the PSR also found
that, the petitioner at times did not know about various actions that
were going on in the conspiracy or on the trips.(PSR 9,11,13). In
fact.,, the government states in its [Position of the US with Respect
to Sentencing filing (DOC 173 p. 9] that.'.'Banks
conspiracy was relatively less egericus than'

conduct within the

that of others & that

the government has no evidence that the defendant possessed a dan­
gerous weapon during the course of his drug dealings."
Both the Government and PSR showed that Banks was not to be confused
with his brother,who .operated at a completely different level of
cuplability and that Banks role is much lower in the conspiracy.In
\

which, even the lawyer argued that .."nothing will be accomplished
by forcing Ranks to stay in prison beyond 120 mt hs ; (Doc • 17 2,
Therefore,

because of these clear and accurate findings of culp­

ability.,, I am requesting that the Court Grant the 2-4 level minor role
Reduction as slotted under Amendment 794 and that the Court also
Grant the Reduction of

[3]

levels for the timely acceptance and

that the Court Grant the Amendment 790 and correct the quantity
accounted for Banks =. .seeing that the US Sentencing Commission has
now "clarified each of these things and it gives the Court.the right
to modify the sentence today. (Amendment 811); US v Avbar-Ulloa 152377 ( 1st Cir. 2019 ); US v Auda.in 15-13217 (11th Cir. 2018); US v
Barona-Bravo 15-13024 (11th Cir. 2017)
2

3553 FACTORS TO

BE CONSIDERED WHEN FASHIONING REDUCTION

(US v Martin & Mangual

17-6199 & 17-6200 (4th Cir. Feb. 26,2019)

The petitioner requested that the court take judicial notice of
the following rehabilational classess and educational accomplishments
as the Peppers and Tapia and numerous rulings require to be considered
when a modification/reduction in sentence is applied for.
Since the petitioner's incarceration he has obtained his G.E.D
and has been paying his fines. The petitioner has achieved a insur­
mountable education in various business classes, self awareness clas­
sess and real estate classes as well as finacial classes. The petititioner has not had institutional infractions and has maintained
his family ties as adovacted by the BOP.

(See Attached Certificates)

Therefore, as part of tne sentencing and motions for reduction,the
court must now considered these significant and admirable changes
that have occured in Mr. Banks and thus Grant the maximum reduction
in the sentence in order to achieve a just reduction based upon these
clarifying and retroactive reductions.
Conclusion
The petitioner prays that the Court Grants the maximum Reduction.

Respectfully submitted on this

&

day of

,2019 by

S/
Mr. Dwayne Banks
Fed No 85470-083
FCI Butner II
P0 Box 1500
Butner,NC 27509

,

Certificate of Service, 28 USC 1746
I, Dwayne Banks, do hereby swear under the penalty of perjury that
a copy of the Motion for Reduction has been sent along with the Certi­
ficates to the E.D.VA (Norfolk) District Court on this

day of

ftR-. ,2019 by way of US Postal Mail from FCI Butner II.
S/

C-

Mr . Dwayne Banks
3

